                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

 Case Number: AI0050034                                                                      Page 1 of 1



                 We assessed an allegation that members of a study group, working under an NSF award],
         had conflicts of interest that affected their recommendations for future research. 2 . The general
         counsel for the awardee confinns 3 that every member participant completed a disclosure fonn as
         described by policy, that a senior member of the staff reviewed all fonns, and that a discussion of
         potential conflicts of interest was held with all participants. No conflicts of interest were
         identified on the written fonns or the discussion. The grantee often produces study group
         reports, is aware of the potential conflicts, but concludes that group recommendations for
         research are not linked to assured future funding for an individual researcher who later submits a
         proposal. We conclude that the allegation is without substance.

                    Accordingly, this case is closed.




          I   Redacted.
         2    Redacted.
         3    Redacted.




NSF OIG Form 2 (11102)
